IN THE SUPREME COURT OF THE UNITED STATES
William Hamman, Petitioner,
v.
University of Central Florida, Respondent.
Certificate of Service
I hereby certify that on September 11, 2019 I mailed three copies of the petition to
each of the following:
Office of Governor Ron DeSantis
State of Florida
The Capitol
400 S. Monroe St.
Tall, FI 32399-0001
Office of the Attorney General
State of Florida
PL-01 The Capitol
Tallahassee, FL 32399-1050
The following were hand delivered on September 12, 2019
Youndy Cook
General Counsel, U.C.F. Board of Trustees
4365 Andromeda Loop North, Suite 360
Orlando, FL 32816
Youndy.Cook@ucf.edu
Valencia College General Counsel
P.O. BOX 3028 Orlando,
Florida 32802-3028

William Henry Hamman

Alfred R^siJ^n Hamman

